                         UNCLASSIFIED

     United States Department of State
   and the Broadcasting Board of Governors
            Office of Inspector General




                    Office of Audits


Independent Accountants’ Report on the
 Application of Agreed-Upon Procedures
         on Indirect Cost Rates
               Proposed by
  National Strategy Information Center,
                   Inc.


    Report Number AUD/CG-07-45, June 2007




                                   IMPORTANT NOTICE


    This report is intended solely for the official use of the Department of State or the
    Broadcasting Board of Governors, or any agency or organization receiving a copy
    directly from the Office of Inspector General. No secondary distribution may be
    made, in whole or in part, outside the Department of State or the Broadcasting
    Board of Governors, by them or by other agencies or organizations, without prior
    authorization by the Inspector General. Public availability of the document will be
    determined by the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper
    disclosure of this report may result in criminal, civil, or administrative penalties.




                           UNCLASSIFIED
                                             UNCLASSIFIED




                              United States Department of State
                           and the Broadcasting Board of Governors,
                                   Office of Inspector General

                                              Office of Audits


                            Independent Accountants' Report on the
           Application of Agreed-Upon Procedures on Indirect Cost Rates
                                     Proposed by
                      National Strategy Information Center, Inc.



                              Report Number AUD/CG-07-45, June 2007




Regis & Associates, PC, Certified Public Accountants, performed the agreed-upon procedures
under Department of State, Office ofInspector General, Contract No. S-AQM-PD-D-0040, and
by acceptance the report becomes a product of the Inspector General.




                                                                         Howard J. Kro
                                                                         ~""          i    ~
                                                                                          ard
                                                                          Inspector General
                                                                                                  '< ~::3 <-\
                                                                                          JUN22 2007

                                                                          Date


                                                Important Notice
This report is intending solely for the official use of the Department of State, Broadcasting Board of Governors, or
any agency or organization receiving a copy directly from the Office ofInspector General. No secondary
distribution may be made, in whole or in part, outside the Department of State or the Broadcasting Board of
Governors by them or by other agencies or organizations without prior authorization by the Inspector General.
Public availability of the document will be determined by the Inspector General under the U.S. Code, 5 D.S.C. 552.
Improper disclosure of this report may result in criminal, civil, or administrative penalties.


                                           UNCLASSIFIED
                                        UNCLASSIFIED

                                            Summary
        At the request of the Department of State (Department), Office of Inspector General
(OIG), Regis & Associates, PC, Certified Public Accountants performed certain agreed-upon
procedures to determine whether the National Strategy Information Center, Inc.’s proposed
indirect cost rates for fiscal years ended October 31, 2005 and 2004 complied with applicable
regulations. We found the Center’s accounting system to be adequate for accumulating and
reporting indirect costs under the provisions of the Office of Management and Budget (OMB)
Circulars A-122, Cost Principles for Non-Profit Organizations, and A-110, Uniform
Administrative Requirements for Grants and Agreements With Institutions of Higher Education,
Hospitals, and Other Non-Profit Organizations.

        We did note, however, that the proposed indirect cost for General and Administrative
expenses for the fiscal year ended October 31, 2004, included $154 for entertainment charges
that contravene the provisions of OMB Circular A-122. Accordingly, we disallowed those costs.

        Overall, our review disclosed that except for the disallowed costs, the indirect cost rates
reported by the Center were properly calculated. The Center’s indirect cost rate structures
complied with OMB Circular A-122. We recommend that the Department accept and finalize
the indirect cost rates for the fiscal years ended October 31, 2005 and 2004 as recommended by
this report.

                                          Background
         The National Strategy Information Center, Inc., was founded in 1962 as an independent,
nongovernmental organization that provides an environment that brings together educators,
government officials, and individuals from the private sector to identify, promote, pilot, and
implement innovative strategies that enhance security and the quality of life in democratic
societies. The Center has been at the forefront of education about challenges to democratic
institutions for more than 40 years. The Center’s traditional partnerships with academic and
research institutions throughout the world also translate research into meaningful contributions to
policy and programs.

       To leverage its modest professional and financial resources, the Center collaborates with
governments and nongovernmental organizations in the United States and abroad to develop,
launch, and establish programs that can become independent and self-sustaining. The Center’s
programs focus on strong educational components, promote policy innovation, and seek to
achieve a multiplier effect by disseminating information and by connecting and mobilizing key
players.

        OMB Circular A-122 provides for the allocation of indirect costs to grants awarded by
federal agencies. Indirect costs are defined as those that have been incurred for common or joint
objectives and cannot be readily identified with a particular final cost objective. The circular
authorizes provisional indirect cost rates, applicable to specific periods, which are used for
funding interim reimbursement and reporting indirect costs on grants pending the establishment
of final rates.


                                        UNCLASSIFIED
                                       UNCLASSIFIED

       The Department’s Grants Policy Directive 22, issued by the Bureau of Administration,
Office of the Procurement Executive, assigns responsibility for negotiating indirect cost rates
with the Department’s grantees to Bureau of Administration, Office of Logistics Management,
Office of Acquisitions Management, International Programs Division.

                           Purpose, Scope, and Methodology
       Our primary purpose was to determine whether the Center’s indirect cost rate structures
for FYs 2005 and 2004 complied with applicable regulations. In agreement with OIG, we
performed the procedures identified below. We conducted this review between March 19 and
May 18, 2007.

        We performed this agreed-upon procedures engagement in accordance with standards
established by the American Institute of Certified Public Accountants and guidance from OMB.
The procedures performed are summarized as follows.

       Interviewed the finance personnel to determine the extent to which each funded program
        benefited from common services.

       Reviewed the Center’s overall financial statements for the fiscal years ended October 31,
        2005 and 2004.

       Verified the mathematical accuracy of the annual indirect cost rate proposals.

       Traced and compared the amounts reported as grant costs to the financial statements and,
        selectively, to transaction source documents.

       Selected a sample of transactions and applied procedures to ensure that the costs incurred
        were properly supported and allowable. Also, tested sample items to determine whether
        they were properly classified as direct or indirect costs and whether the Center, where
        applicable, properly excluded unallowable costs from the cost pools used in computing
        the indirect cost rates.

       Reviewed the Center’s grants and its negotiated indirect cost rate agreements to ascertain
        whether the Center’s annual rate submissions were prepared in accordance with the
        grant’s terms and provisions in the rate agreements.

                                            Results
        We found the Center’s accounting system to be adequate for accumulating and reporting
indirect costs allowable under the provisions of OMB Circular A-122. However, we did note
that the proposed indirect cost for General and Administrative (G&A) expenses in FY 2004
included $154 for entertainment charges that contravene the provisions of OMB Circular A-122.
Accordingly, we questioned these costs in their entirety and disallowed the amount as shown in
Attachment E of this report.


                                     UNCLASSIFIED                                                 2
                                       UNCLASSIFIED

        Our review of documentation supporting G&A costs claimed by the Center for the year
ending October 31, 2004, noted that charges for alcoholic beverages amounting to $154 were
included in the G&A cost pool for indirect rate computation. OMB Circular A-122, Attachment
B, Paragraph 2, states that “Costs of alcoholic beverages are unallowable.” The Center indicated
that the inclusion of the cost of alcoholic beverages in the G&A cost pool for indirect cost rate
computation was an oversight.

        The inclusion of the unallowable costs identified above in the G&A cost pool, and thus in
the indirect cost rate computation, increases the G&A rate. This increase in turn resulted in
higher G&A expense amounts being charged to federal grants. As a result, we reduced the
Center’s FY 2004 G&A expenses by the disallowed amount and recalculated the indirect cost
rate. (See Table 1.)

   Table 1: The Center’s Proposed Indirect Cost Rates and Our Recommended Rates

                                                       NSIC
   Fiscal Year Description                         Proposed Rate       Recommended Rate
   2005        Fringe Benefits                        (b) (4)                (b) (4)
               Occupancy                              (b) (4)                (b) (4)
               General and Administrative             (b) (4)                (b) (4)


   2004           Fringe Benefits                     (b) (4)                (b) (4)
                  Occupancy                           (b) (4)                (b) (4)
                  General and Administrative          (b) (4)                (b) (4)


        Attachments A through E of this report present the supporting calculations for the
indirect cost rates identified in Table 1 above.

          Recommendation 1: We recommend that the Bureau of Administration, Office of
          Logistics Management, Office of Acquisitions Management, International Programs
          Division accept and finalize the fiscal years 2005 and 2004 indirect cost rates as
          recommended by this report.




                                     UNCLASSIFIED                                               3
  MANAGEMENT CONSULTANTS &
 CERTIFIED PUBLIC ACCOUNTANTS




                INDEPENDENT ACCOUNTANTS’ REPORT ON APPLYING
                          AGREED-UPON PROCEDURES

U.S. Department of State
Office of Inspector General
Office of Audits
1700 North Moore Street
Arlington, VA 22209

Regis & Associates, PC has applied certain agreed-upon procedures (the Procedures), as
summarized in the Purpose, Scope, and Methodology section of this report, relative to the
National Strategy Information Center, Inc’s proposed indirect cost rates for the fiscal years
ending October 31, 2005 and 2004, at the request of the U.S. Department of State, Office of
Inspector General.

The Procedures, which were agreed to by the Office of Inspector General, were performed to
determine whether the indirect cost rate structure of the Center complied with OMB Circular A-
122. This agreed-upon procedures engagement was performed in accordance with standards
established by the American Institute of Certified Public Accountants and guidance from the
Office of Management and Budget. The sufficiency of the Procedures is solely the responsibility
of the specified users of the report. Consequently, we make no representations regarding the
sufficiency of the Procedures, either for the purpose for which this report has been requested, or
for any other purpose.

We were not engaged to, and did not perform an audit, the objective of which would be the
expression of an opinion on the adequacy and compliance of the reviewed cost or pricing data.
Accordingly, we do not express such an opinion. Had we performed additional procedures, other
matters might have come to our attention that would have been reported to you.

This report is intending solely for the use of the U.S. Department of State, Office of Inspector
General, and should not be used by those who have not agreed to the procedures, and taken
responsibility for the sufficiency of the procedures for their purposes. This report relates only to
the indirect cost rates specified above.




Regis & Associates, PC
May 18, 2007




       1400 Eye Street, NW, Suite 425, Washington, D.C. 20005 Tel 202-296-7101 Fax 202-296-7284
                                       UNCLASSIFIED


                                                                                   Attachment A
                       National Strategy Information Center, Inc.

                     Schedule of Indirect Cost and Indirect Cost Rates
                  for the Fiscal Years Ending October 31, 2005 and 2004


                      Allowable Indirect Cost Amounts      Indirect       Indirect Cost Rates
 Rate Description    Proposed         Recommended         Cost Base    Proposed Recommended

Fringe Benefits


2005                   (b) (4)                 (b) (4)      (b) (4)      (b) (4)       (b) (4)



2004                    (b) (4)                 (b) (4)      (b) (4)       (b)           (b)
                                                                           (4)           (4)
Occupancy


2005                   (b) (4)                 (b) (4)    (b) (4)        (b) (4)       (b) (4)



2004                    (b) (4)                 (b) (4)    (b) (4)         (b)           (b)
                                                                           (4)           (4)
General and
Administrative


2005                   (b) (4)                 (b) (4)    (b) (4)        (b) (4)       (b) (4)



2004                    (b) (4)                 (b) (4)    (b) (4)         (b)           (b)
                                                                           (4)           (4)




                                      UNCLASSIFIED                                         5
                               UNCLASSIFIED


                                                                    Attachment B
             National Strategy Information Center, Inc.

       Schedule of Allowable Fringe Benefits Cost and Rates
      for the Fiscal Years Ending October 31, 2005 and 2004


Allowable Fringe Benefits Costs                     FY 2005       FY 2004

Vacation Leave, & Other Compensated Absences         (b) (4)       (b) (4)
Health Insurance                                      (b) (4)       (b) (4)
Salary-Payroll Taxes                                  (b) (4)       (b) (4)
Disability Insurance-General Administration             (b) (4)       (b) (4)
Transportation Fringe                                   (b) (4)       (b) (4)
Pension                                               (b) (4)       (b) (4)
Total Allowable Fringe Benefits Costs (Numerator)   (b) (4)       (b) (4)


Total Salaries (Denominator)                        (b) (4)       (b) (4)


Allowable Fringe Benefits Rate                        (b) (4)       (b) (4)




                           UNCLASSIFIED                                         6
                            UNCLASSIFIED


                                                                    Attachment C
             National Strategy Information Center, Inc.

         Schedule of Allowable Occupancy Cost and Rates
      for the Fiscal Years Ending October 31, 2005 and 2004

Indirect Costs                                   FY 2005          FY 2004

Rent                                            (b) (4)          (b) (4)
Depreciation                                         (b) (4)          (b) (4)
Equipment Rental                                      (b)             (b) (4)
                                                      (4)
                                                       (b)              (b)
Travel/General Administration
                                                       (4)(             (4)
                                                                          (b
Parking
Repair and Maintenance                             (b) (4)b               )
                                                                    (b) (4)
                                                          )               (4)
Real Estate Taxes                                    (b) (4)          (b) (4)
                                                          (
Total Allowable Occupancy Costs (Numerator)     (b) (4) 4        (b) (4)
                                                          )
Total Direct Costs (Denominator)              (b) (4)          (b) (4)


Occupancy Rate                                    (b) (4)          (b) (4)




                          UNCLASSIFIED                                          7
                          UNCLASSIFIED


                                                                   Attachment D
           National Strategy Information Center, Inc.

Schedule of Allowable General and Administrative Cost and Rate
          for the Fiscal Year Ending October 31, 2005


     Indirect Costs                              Amount

     Salaries                                      (b) (4)
     Applied Fringe                                   (b) (4)
     Training                                               (b
                                                            )(b
     Flex Plan
                                                            (4)
                                                             )
     Accounting Fees                                  (b) (4)
                                                             (4)
     Consulting                                       (b) (4)
     Misc. Taxes                                          (b)
     Travel/Lodging/Meals                             (b) (4)
                                                          (4)
     Placement Fees                                   (b) (4)
     Postage/Printing Expenses                          (b) (4)
     Telephone/Internet/Fax Expenses                  (b) (4)
     Bank Charges                                       (b) (4)
     Temporary Help                                   (b) (4)
     Office Supplies                                  (b) (4)
     Insurance                                        (b) (4)
     Dues and Membership                                (b) (4)
     Miscellaneous                                          (b
     Total Administrative Costs (Numerator)        (b) (4) )
                                                            (4)

     Total Direct Costs (Denominator)            (b) (4)


     General and Administrative Rate                 (b) (4)




                        UNCLASSIFIED                                          8
                            UNCLASSIFIED


                                                                           Attachment E
             National Strategy Information Center, Inc.

Schedule of Allowable General and Administrative Cost and Rate
          for the Fiscal Year Ending October 31, 2004

                                                          Amount
Indirect Costs                           Claimed          Disallowed Allowable
Accounting Fees                             (b) (4)                       (b) (4)
Bank Charges                                    (b) (4)                       (b) (4)
Book/Subscription                                  (b)                           (b)
                                                   (4)
                                              (b) (4)                            (4)
                                                                            (b) (4)
Consultant Fees
Dues and Memberships                               (b)                           (b)
Fringe Applied                                (b) (4)
                                                   (4)                      (b) (4)
                                                                                 (4)
Insurance                                       (b) (4)                       (b) (4)
Internet/Fax                                    (b) (4)                       (b) (4)
Legal / Profession Fees                       (b) (4)                       (b) (4)
Travel/Lodging /Meals                         (b) (4)           $154        (b) (4)
Miscellaneous Expenses                             (b)                           (b)
                                                   (4)
                                                   (b)                           (4)
                                                                                 (b)
Miscellaneous Taxes
Office Expenses                               (b) (4)
                                                   (4)                       (b)(4)
                                                                                  (4)
Postage Expenses                                (b) (4)                       (b) (4)
Professional Fees                                  (b)                           (b)
Printing and Reproduction Expenses              (b)(4)
                                                    (4)                       (b)(4)
                                                                                   (4)
Rabbi Trust Fund                              (b) (4)                       (b) (4)
Rabbi Trust Fund Medical                      (b) (4)                       (b) (4)
Salary                                      (b) (4)                       (b) (4)
Telephone                                       (b) (4)                       (b) (4)
Temporaries Help Administration                 (b) (4)                       (b) (4)
Training                                           (b)                           (b)
Total Administrative Costs (Numerator)     (b) (4)(4)           $154     (b) (4)(4)


Total Direct Costs (Denominator)         (b) (4)                       (b) (4)


General and Administrative Rate              (b) (4)                       (b) (4)




                           UNCLASSIFIED                                                  9
UNCLASSIFIED




  UNCLASSIFIED
